The U.S. International Trade Commission is an independent, nonpartisan, quasi-judicial federal agency
that provides trade expertise to both the legislative and executive branches of government, determines the
impact of imports on U.S. industries, and directs actions against certain unfair trade practices, such as
patent, trademark, and copyright infringement. USITC analysts and economists investigate and publish
reports on U.S. industries and the global trends that affect them. The agency also maintains and publishes
the Harmonized Tariff Schedule of the United States.




                                             Commissioners
                                        Shara L. Aranoff, Chairman
                                        Daniel R. Pearson, Vice Chairman
                                        Deanna Tanner Okun
                                        Charlotte R. Lane
                                        Irving A. Williamson
                                        Dean A. Pinkert
Chairman




         UNITED STATES INTERNATIONAL TRADE COMMISSION

                                     WASHINGTON, DC 20436



                                          May 24, 2010


Message from the Chairman

In accordance with the Inspector General Act of 1978, as amended, 5 U.S.C. App. 3 (“the IG
Act”), the U.S. International Trade Commission (“USITC” or “Commission”) hereby transmits
the Semiannual Report of the USITC Inspector General for the period October 1, 2009 – March
31, 2010.

The Commission would first like to recognize the work done by the Office of Inspector General
in assuring the effectiveness, efficiency, and integrity of Commission programs and operations.
Furthermore, I want to express appreciation to Mr. Philip M. Heneghan, who became the
Commission’s Inspector General on December 6, 2009. He and his staff have provided
invaluable assistance to the Commission during the past few months. We look forward to
continuing to work with Mr. Heneghan as we address the issues raised in his report.

The Inspector General’s Semiannual Report identifies the top management and performance
challenges that require significant attention from the USITC for FY 2010. The Commission
concurs with the critical challenges identified by the Inspector General. The USITC has a long
history of successful performance in the areas of import injury proceedings, intellectual property
enforcement, and industry and economic research, and it has always focused its resources on
providing timely and high quality services to the Administration, Congress, and the public on
trade matters. We are working to ensure that our internal operations are equally well managed.
We believe that the comprehensive action plans we have in place will address the deficiencies
identified by the Inspector General, and we already have completed a number of these corrective
actions.

The actions we are taking to address our challenges are summarized in the following three
sections: (1) financial management and internal controls, (2) information technology security,
and (3) strategic management of human capital and procurement and contract management. I
will then address the status of actions on Inspector General Recommendations.
Management and Performance Challenges

1.     Financial Management and Internal Controls

In November 2009, an independent accounting firm, monitored by the Office of Inspector
General, issued a disclaimer on the Commission’s FY 2009 financial statements. It was the first
time since the Commission started to have its financial statements audited in FY 2003 that the
agency received less than a clean opinion from its auditors. The Commission and its staff,
however, understand the seriousness of the disclaimer and recognize that we must adopt a system
of stronger internal controls and processes.

       A.      Audit Background

The Commission did not close out its FY 2009 books in a timely fashion in part due to the
Commission’s migration in FY 2009 to a new financial system, Oracle Federal Financials. The
agency was obligated to transition to a new system because the U.S. Department of the Interior’s
National Business Center (“NBC”) was discontinuing its support for the Commission’s existing
system. We continue to work with NBC to ensure that the system will function as promised.

In addition, the review of the balance of the Property, Plant, and Equipment account had not
been successful. The root cause of this problem is that, in the past, the Commission had failed to
identify and capitalize the software systems that it developed in-house. Instead, the Commission
had erroneously expensed the development costs of these systems during the fiscal year in which
they had occurred. When the auditors identified this issue, sufficient time did not remain to
assemble an asset file regarding each of the systems. We expect that all necessary files and
documentation will be available for the upcoming FY 2010 audit.

While the Commission recognizes the seriousness of the identified problems and the significant
remedial measures that need to be taken, it bears noting that at the time of the disclaimed opinion,
the Office of Inspector General reported “no evidence of intentional fraud or willful
misrepresentation of financial information” under the agency’s control.

       B.      Management Action Plan

I affirm that the Commission is committed to the integrity of its financial information, including
the principles and objectives of the Federal Managers’ Financial Integrity Act and the
Accountability of Tax Dollars Act of 2002, the accounting principles approved by the Federal
Accounting Standards Advisory Board, and the guidance provided in Office of Management and
Budget (“OMB”) Circular A-123 (Management’s Responsibility for Internal Control) and
Circular A-136 (Financial Reporting Requirements).

In response to the disclaimer received on the FY 2009 financial statement audit, the Commission
has implemented a comprehensive action plan to rectify the underlying problems. The
Commission is working to remedy the deficiencies identified in the FY 2009 balance sheets and
to prevent any future recurrence by developing more robust and comprehensive internal controls

                                                 2
and processes. For each recommendation identified in the FY 2009 audit report, the action plan
provides (1) a summary of the actions Commission management is taking to resolve the
deficiencies associated with the recommendation, and (2) a target date by which the Commission
expects to complete the actions. On March 9, 2010, the USITC Inspector General agreed that the
actions committed to by the Chairman would address the recommendation. A number of
milestones in the action plan have already been met.

As recommended, the Commission is reviewing its internal controls consistent with the
applicable OMB requirements to ensure that the objectives of the Federal Managers’ Financial
Integrity Act are achieved. In this regard, the Commission awarded a contract on March 3, 2010,
to a firm that is reviewing and evaluating existing internal controls, designing and implementing
a comprehensive, agency-wide internal control system that fully complies with applicable laws
and regulations, and providing temporary staffing of the management position related to the
creation of the new internal control system/internal control program. With the assistance of the
contractor, the Commission is in the process of implementing robust and comprehensive internal
controls and processes.

In addition, the Commission recently awarded a contract to assess the human capital needs of the
USITC Office of Administration, including the Office of Finance. Once the Commission
receives this assessment, it then can make informed decisions on how best to staff the Office of
Finance so that we have the personnel and skills necessary to implement the internal controls and
processes we are putting in place.

These efforts, plus the advice of the Inspector General, should rectify the systemic deficiencies
identified by the auditors. The Inspector General and our contractors, however, have advised the
Commission that these actions will require time to draft and implement, and that it will take
considerable time to begin to see the effectiveness of the internal controls and processes. We
also are aware that significant training of USITC employees will be needed. Finally, we will
have to test the new system to ensure that the system is adequate and modify it as needed.

2.     Information Technology Security

The Inspector General’s Semiannual Report identifies continued weaknesses in the
Commission’s plans for continuity of operations. The Report notes that the Commission has not
completed final action on three recommendations dating back to 2005. The Commission
acknowledges that the three recommendations remain open. The Commission is working to
complete final action on these recommendations in the near term.

The Commission delayed implementing the three recommendations because of other pressing
priorities. Thus, the Commission’s priorities were to (1) replace its aforementioned financial
accounting system, (2) significantly expand its resources for intellectual property enforcement
(i.e., hiring more ALJs and staff and obtaining additional space) due to an onslaught of cases
filed before the Commission, and (3) design and implement plans for continuity of operations.
The Commission lacked the resources to do all three over the past few years.


                                                3
To address deficiency in its plans for continuity of operations, the Commission is seeking almost
$1 million in its FY 2011 budget justification to begin developing a comprehensive Continuity of
Operations (“COOP”) plan and an alternative facility for reconstitution of the USITC network
infrastructure and essential functions. In addition, the Commission recently adopted a
preliminary COOP plan. This plan, while overall positively evaluated by FEMA, nevertheless
requires additional refinement before it will be complete. In further commitment to its COOP
Program, the Commission began recruiting for a COOP Program Manager to provide full-time
leadership and direction of the Commission’s continuity initiatives and expects to fill the
position in the next few months.

3.     Strategic Management of Human Capital and Procurement and Contract Management

The Inspector General’s Semiannual Report identifies continued weaknesses in the
Commission’s strategic management of human capital and documentation in procurement files.
The Commission concurs with the Inspector General’s assessment and it is working to rectify
these issues both through the development of robust internal controls and processes and through
obtaining an outside assessment of the human capital needs of the USITC Office of
Administration, which includes both Human Resources and Procurement. The Commission has
implemented a management action plan addressing the human capital weaknesses to rectify the
underlying problems.

Actions on Inspector General Recommendations

Management decisions were made on all 40 recommendations that the Inspector General made
during this period. Management decisions have been made and final actions completed for all
recommendations made in prior periods, except for the three recommendations related to COOP
planning discussed in section 2 above. The statistical tables required under the IG Act are
included as Appendix A to this report.

Please contact me if you have questions on this matter.

                                                    Sincerely,




                                                    Shara L. Aranoff
                                                    Chairman




                                                4
OFFICE OF INSPECTOR GENERAL




      UNITED STATES INTERNATIONAL TRADE COMMISSION

                                  WASHINGTON, DC 20436


April 30, 2010                                                       OIG-HH-007


Chairman Aranoff:

Attached is a report summarizing the activities of the Office of Inspector General during
the period October 1, 2009 to March 31, 2010.

For the first time since the Commission began having its financial statements audited, the
external auditor disclaimed an opinion because the Commission could not provide
sufficient evidence to confirm the account balances reported on the statements. This
inability to provide the necessary documentation highlighted significant systemic
problems with the Commission’s systems of internal control. The aggressive action plan
you have initiated is critical in order to change the culture of financial management at the
Commission, and I look forward to working with you through its implementation.

This submission is my first Semiannual Report after being appointed Inspector General in
December. As I undertake this responsibility, I want to assure you that my staff and I are
committed to a Commission that operates with efficiency, effectiveness, and integrity.
We look forward to working with you, the Commission staff, Administration officials,
and Congress in pursuing this mutual objective.




Philip M. Heneghan
Inspector General
                   U.S. International Trade Commission
                                 Inspector General Semiannual Report


                                          TABLE OF CONTENTS

Office of Inspector General.............................................................................................. 1

Semiannual Report Introduction..................................................................................... 2

Top Management & Performance Challenges ............................................................... 2
  Financial Management.................................................................................................... 3
  Information Technology Security ................................................................................... 3
  Procurement and Contract Management......................................................................... 4
  Strategic Management of Human Capital....................................................................... 5
  Internal Controls ............................................................................................................. 5

Inspector General Reports Issued This Period ............................................................. 6
  Report on 2009 Financial Statements ............................................................................. 7
  Report on Internal Control for 2009 Financial Statements............................................. 7
  Report on Compliance with Laws & Regulations for 2009 Financial Statements ......... 8
  Management Letter for 2009 Financial Statements ........................................................ 8
  FISMA Report Fiscal Year 2009 .................................................................................... 9
  FISMA Fiscal Year 2009 Performance Audit ................................................................ 9

Status of Actions Related to External Reviews Completed During Prior Periods ... 10
  Office of Government Ethics Review........................................................................... 10
  Office of Personnel Management Review .................................................................... 10

External Reviews Currently Underway Related to Inspector General Activities .... 11
  Government Accountability Office Review ................................................................. 11
  Peer Review of the Office of Inspector General Audit Function.................................. 11

Congressional Liaison Activities.................................................................................... 12

List of Tables
  Table 1: Reporting Requirements Index ........................................................................ ii
  Table 2: Management & Performance Challenges ........................................................ 2
  Table 3: Prior Recommendations................................................................................... 3
  Table 4: Reports by Subject Matter ............................................................................... 6
  Table 5: Reports with Questioned/Unsupported Costs................................................ 13
  Table 6: Reports with Recommendations that Funds Be Put to Better Use ................ 13
  Table 7: Status of Reports Issued Without Final Action ............................................. 14

Appendix
  Appendix A: Chairman’s Statistical Tables............................................................... A-1
                                                                 i
                              Report Period: October 1, 2009 through March 31, 2010
             U.S. International Trade Commission
                     Inspector General Semiannual Report


                        Table 1: Reporting Requirements Index



                         Reporting Requirements Index

       IG Act                                Description                    Page
                     Review of Legislation                                  None
Section 4(a)(2)
                     Description of Significant Problems, Abuses, and
                                                                            2-5
Section 5(a)(1)      Deficiencies
                     Description of Recommendations for Corrective
                     Action with Respect to Significant Problems, Abuses,   2-9
Section 5(a)(2)
                     and Deficiencies
                     Prior Period Recommendations
                                                                             3
Section 5(a)(3)      Where Corrective Action Has Not Been Completed
                     A Summary of Matters Referred to Prosecuting
                                                                            None
Section 5(a)(4)      Authorities
                     Summary of Instances Where Information or
                                                                            None
Section 5(a)(5)      Assistance Was Unreasonably Refused
                     Listing by Subject Matter of Each Report Issued
Section 5(a)(6)                                                              6
                     During this Reporting Period
                     Summary of Significant Reports                         6-9
Section 5(a)(7)
                     Statistical Table Showing Questioned and
                                                                             13
Section 5(a)(8)      Unsupported Costs
                     Statistical Table Showing Recommendations Where
                                                                             13
Section 5(a)(9)      Funds Could Be Put to Better Use
                     Summary of Audit Reports Issued Before the Start of
                     the Reporting Period for Which No Management           None
Section 5(a)(10)
                     Decision Has Been Made
                     Description of Any Significant Revised Management
                                                                            None
Section 5(a)(11)     Decisions
                     Information Concerning Any Significant
Section 5(a)(12)     Management Decision with Which the Inspector           None
                     General Is in Disagreement




                                            ii
                   Report Period: October 1, 2009 through March 31, 2010
             U.S. International Trade Commission
                       Inspector General Semiannual Report


                         Office of Inspector General
The U.S. International Trade Commission established the Office of Inspector General
pursuant to the 1988 amendments to the Inspector General Act (IG Act). The Office is
headed by the Inspector General, who reports directly to the Chairman. As set forth in
the IG Act, the Inspector General has the authority and responsibility to conduct objective
and independent audits, reviews and investigations of the Commission’s programs and
operations. Specifically, the Inspector General is responsible for promoting economy,
efficiency, and effectiveness within the Commission; preventing and detecting fraud,
waste, abuse, and mismanagement in the Commission’s programs and operations;
providing comments and recommendations on proposed legislation, regulations, and
procedures affecting the Commission; and keeping the Chairman and the Congress fully
and currently informed of problems in agency programs and operations.


The Office of Inspector General has four staff positions. Three of these positions were
filled during this period. The Inspector General was appointed on December 6, 2009.
A Senior Analyst was hired on February 28, 2010, and another Senior Analyst was hired
on March 28, 2010. In addition, the Treasury Inspector General for Tax Administration
has agreed to provide legal services to the Inspector General on an as-needed basis
through a Memorandum of Understanding.




                                              1
                     Report Period: October 1, 2009 through March 31, 2010
              U.S. International Trade Commission
                       Inspector General Semiannual Report


                      Semiannual Report Introduction

This Semiannual Report begins with the identification of the five most significant
management challenges facing the Commission. It then provides the results of the six
reports issued by the Inspector General this period and describes other external reviews
related to the Commission and the Office of Inspector General. The last section supplies
information on Congressional liaison activities. Additional tables at the end of the report
make available statistics on the Inspector General’s reports and recommendations.



             Top Management & Performance Challenges
The Inspector General is required by statute to identify the most significant management
and performance challenges facing the USITC in the coming year. The Inspector General
provides the Commission with this assessment, which is included in the annual
Performance and Accountability Report. This assessment is based on information from
the Office of Inspector General’s audit and inspection work, a general knowledge of the
Commission’s programs and activities, and input from management on what challenges
the agency is facing and the efforts the agency has taken to address the challenges.
Recent management and performance challenges identified by the Office of Inspector
General include the five areas identified in Table 2.

                      Table 2: Management & Performance Challenges


                      Management & Performance Challenges
               1. Financial Management
               2. Information Technology Security
               3. Procurement and Contract Management
               4. Strategic Management of Human Capital
               5. Internal Controls

                                              2
                     Report Period: October 1, 2009 through March 31, 2010
              U.S. International Trade Commission
                       Inspector General Semiannual Report



1. Financial Management
For the first time since the Commission began having its financial statements audited, the
external auditor engaged by the Inspector General disclaimed an opinion because the
Commission could not provide sufficient evidence to confirm account balances on the
financial statements. The inability to provide the necessary documentation highlighted
significant systemic problems with the Commission’s systems of internal control.


2. Information Technology Security
Management has not completed final action on three recommendations, originally made
in 2005, to address weaknesses in the Commission’s plans for continuity of operations.
The recommendations, involving contingency plan updates, restoration of data, and an
alternate processing facility are provided in Table 3.

  Table 3: Prior Period Recommendations Where Corrective Action Has Not Been Completed

                        Prior Period Recommendations
                Where Corrective Action Has Not Been Completed
 Report Number                                   Recommendation
                      Develop, document, and test an agency-wide Continuity of
                      Operations Program plan in accordance with Federal Preparedness
  OIG-AR-04-05
                      Circular 65, Federal Executive Branch Continuity of Operations,
                      and NIST SP 800-34 guidelines.
                      Ensure major applications and general support system contingency
  OIG-AR-04-05        plans are updated and tested in accordance with NIST SP-800-34
                      guidelines.
                      With respect to each mission-critical application and general
                      support system, determine if an alternate processing facility is
  OIG-AR-04-05        necessary and identify the respective facility. At this alternate
                      facility, contingency plans should be tested and arrangements made
                      for its use in the event of a major interruption or disaster.


As a result, the Commission is not prepared to effectively manage a significant event
such as a natural or man-made disaster. This lack of preparation was further addressed in


                                              3
                     Report Period: October 1, 2009 through March 31, 2010
              U.S. International Trade Commission
                        Inspector General Semiannual Report



the FISMA Fiscal Year 2009 Performance Audit Report. The report indicated that the
environmental controls for the USITC data center are inadequate, and the lack of an
alternative processing site makes the USITC’s building a single point of failure in the
event of a fire. This finding reiterates the need for both an alternative processing site and
the ability to restore data and operations in order to prevent a significant disruption to the
Commission’s operations if an event were to occur. There were several other
recommendations made in the FISMA Fiscal Year 2009 Performance Audit Report
associated with the improvement and strengthening of information security controls.


3. Procurement and Contract Management
Throughout the government, procurement and contracts have historically been areas
subject to fraud and waste, and effectively managing the acquisition process is a
continuing challenge. Poor oversight, ineffective controls, and inaccurate billings are just
a few examples of the Commission’s vulnerability to procurement fraud. The lack of an
integrated financial procurement system, combined with ineffective internal controls,
complicate efforts to track and reconcile procurement activities.

The independent auditors issued a management letter on December 8, 2009, that
identified several weaknesses related to documentation in the procurement files. In the
report to management, these weaknesses were noted as being repeat conditions. The
management letter included recommendations to procurement officials on the need to
maintain contract files in compliance with applicable laws, regulations, and policies and
procedures.




                                               4
                      Report Period: October 1, 2009 through March 31, 2010
              U.S. International Trade Commission
                        Inspector General Semiannual Report



4. Strategic Management of Human Capital
The independent auditor’s Report on Internal Control for 2009 Financial Statements
indicated that many of the identified weaknesses were related to not allocating sufficient
resources to perform day-to-day financial management functions. The auditors
recommended that the Commission review its current organizational structure and ensure
adequate resources are allocated to financial management.

An external review by the Office of Personnel Management (OPM) identified additional
weaknesses related to the Commission’s strategic management of human capital. The
OPM determined that the lack of internal control regarding the management of human
capital might impact the Commission’s ability to maintain a skilled and experienced
workforce. The OPM recommended that the Commission develop an accountability
system to continually assess and improve the human capital planning process.


5. Internal Controls
The Commission’s management is responsible for establishing and maintaining a system
of internal controls to achieve the objectives of effective and efficient operations, reliable
financial reporting, and compliance with applicable laws and regulations. Each review
performed during this reporting period identified issues associated with weak or non-
existent internal controls. The most significant weakness identified was noncompliance
with the Federal Managers’ Financial Integrity Act. In addition, the Commission did not
perform a risk assessment in accordance with OMB Circular A-123, Management’s
Responsibility for Internal Control. As a result, management did not identify any
material weaknesses or significant deficiencies in the results of its review of internal
control. The OPM’s external review also recommended improvements to the internal
controls in the Commission’s human resource program.




                                               5
                      Report Period: October 1, 2009 through March 31, 2010
               U.S. International Trade Commission
                        Inspector General Semiannual Report



               Inspector General Reports Issued This Period
The reports the Inspector General issued during this period focused on the Commission’s
top two management challenges—financial management and information security. The
Inspector General issued six reports with a total of thirty recommendations. The
Commission made management decisions on all the recommendations. The Inspector
General agreed with all the management decisions. During this period, the Commission
completed final action on five of these management decisions. A listing of each report
by subject matter is provided in Table 4 below. The key findings of each report are
presented in the sections that follow.

                              Table 4: Reports by Subject Matter

                               Reports by Subject Matter
 Subject         Report                                            Date
                                       Report Title                                Results
 Matter          Number                                           Issued
                               Auditor’s Report on 2009                       Unable to render an
Financial      OIG-AR-01-10                                      11/06/2009
                               Financial Statements                           opinion

                               Independent Auditor’s Report on   11/06/2009   13
Financial      OIG-AR-02-10
                               Internal Control for 2009                      Recommendations
                               Financial Statements

                               Independent Auditor’s Report on
                                                                 11/06/2009   Non Compliance
Financial      OIG-AR-03-10    Compliance with Laws and
                                                                              with FMFIA
                               Regulations for 2009 Financial
                               Statements

Financial      OIG-ML-04-10    Management Letter for 2009        12/8/2009    6 Recommendations
                               Financial Statements

 IT Security   OIG-MR-06-10                                      11/18/2009   Report to OMB
                               FY 2009 FISMA Report

                                                                 03/09/2010   11
 IT Security   OIG-AR-05-10    FY 2009 FISMA Performance
                                                                              Recommendations
                               Audit Report
NOTE: There were no questioned costs, unsupported costs or funds identified that could be put
to better use in any of these reports.



                                               6
                      Report Period: October 1, 2009 through March 31, 2010
              U.S. International Trade Commission
                        Inspector General Semiannual Report



Independent Auditor’s Report on 2009 Financial Statements, OIG-AR-01-10

The Inspector General engaged the services of an independent accounting firm to audit
the balance sheet and related financial statements for fiscal year 2009. The audit team
identified issues related to documentation and controls over the accounting for Property,
Plant, and Equipment; accounts payable; and financial reporting. The auditors did not
obtain sufficient evidential support for amounts presented in the balance sheet, and as a
result, they were unable to express an opinion. This is the first time since the
Commission began having its financial statements audited that it has received a
disclaimer.


Independent Auditor’s Report on Internal Control for 2009 Financial Statements,
OIG-AR-02-10

The Inspector General engaged the services of an independent accounting firm to audit
the USITC fiscal year 2009 financial statements. The Commission did not perform a risk
assessment in accordance with OMB Circular A-123, Management’s Responsibility for
Internal Control. As a result, management was not able to identify any material
weaknesses or significant deficiencies in the results of its internal control review.
However, the auditors identified material weaknesses in the areas of internal controls
over financial reporting, financial analysis, and management oversight. The auditors
determined that the Commission’s lack of formal documented financial policies and
procedures was a contributing factor to the material weaknesses. The report included 13
recommendations to assist the USITC management in strengthening its internal control
surrounding financial management. The Commission’s management agreed with all of
the recommendations, made management decisions to resolve the identified weaknesses,
and is currently in the process of implementing the management decisions.




                                               7
                      Report Period: October 1, 2009 through March 31, 2010
              U.S. International Trade Commission
                       Inspector General Semiannual Report



Independent Auditor’s Report on Compliance with Laws and Regulations for 2009
Financial Statements, OIG-AR-03-10

The Inspector General engaged the services of an independent accounting firm to audit
the USITC’s compliance with certain provisions of laws and regulations, where
noncompliance could have a direct and material effect on the determination of financial
statement amounts. The findings indicated the Commission had not fully complied with
certain requirements of the Federal Managers Financial Integrity Act. The auditors
identified the following three key areas of deficiency:

   x   Inadequate Financial Statement Preparation and Reporting Controls

   x   Insufficient Controls Surrounding Property, Plant, and Equipment

   x   Insufficient Controls Surrounding Accounts Payable, Expenditures, and
       Obligations

As a result of these weaknesses, the auditors were unable to determine whether there
were other instances of noncompliance that should have been reported.

Management Letter for 2009 Financial Statements, OIG-ML-04-10

The independent auditors issued a management letter on December 8, 2009, which noted
additional weaknesses involving internal control and other operational matters. The audit
team identified control deficiencies in the following three areas:

   x   Policies and Procedures

   x   Internal Control Deficiencies (Prompt Payment Act & Imputed Costs)

   x   Unauthorized Contractual Obligations




                                              8
                     Report Period: October 1, 2009 through March 31, 2010
             U.S. International Trade Commission
                       Inspector General Semiannual Report



To address the findings, the report included six recommendations for the Commission’s
management. The USITC agreed with all of the recommendations, made management
decisions, and is currently in the process of implementing the management decisions.


Federal Information Security Management Act (FISMA) Report Fiscal Year 2009,
OIG-MR-06-10

The Inspector General is required by law to perform an independent evaluation of the
Commission’s compliance with FISMA. In the Fiscal Year 2009 evaluation, the
Inspector General reported a weakness regarding the Commission’s Plan of Action and
Milestones process. This evaluation was included as part of the Chairman’s Annual
FISMA Report submission to the Office of Management and Budget.



Federal Information Security Management Act (FISMA) Fiscal Year 2009
Performance Audit, OIG-AR-05-10

The objective of this audit was to determine whether the Commission’s information
security program—consisting of plans, policies, procedures, and security controls for
Fiscal Year 2009—complies with the requirements of FISMA. The findings identified
program weaknesses related to the Plan of Action and Milestones process, account
management, physical and environmental controls, and compliance with certain
standards. The audit also revealed that the Commission is subject to daily cyber attacks
and anticipates that the complexity and frequency of cyber attacks are likely to increase
in the coming year. The identified weaknesses resulted in 11 new recommendations.
The USITC management has developed an action plan to address each of the 11
recommendations.




                                              9
                     Report Period: October 1, 2009 through March 31, 2010
             U.S. International Trade Commission
                      Inspector General Semiannual Report



            Status of Actions Related to External Reviews
                  Completed During Prior Periods

Office of Government Ethics Review

The Office of Government Ethics completed an external review of the USITC’s Ethics
Program on September 30, 2009. The purpose of the review was to evaluate the extent of
compliance with ethics laws, regulations and policies, and to review the Commission
processes and procedures for administering the program. The review resulted in one
recommendation. The Commission made a management decision to implement the
recommendation and has completed final action.


Office of Personnel Management Review

The Office of Personnel Management completed an external review of the USITC’s
human resource program on August 26, 2009. The purpose of the review was to evaluate
the human capital program at the Commission. This evaluation resulted in 83
recommendations being made to the Commission to ensure compliance with laws and to
strengthen the management and administration of the USITC’s human capital program.
The Commission made management decisions to implement all of the recommendations
and has completed final action on 34 of the recommendations. The Commission is
working on implementing the remaining management decisions.




                                             10
                    Report Period: October 1, 2009 through March 31, 2010
               U.S. International Trade Commission
                        Inspector General Semiannual Report



                  External Reviews Currently Underway
                  Related to Inspector General Activities

Government Accountability Office (GAO) Review of Inspector General
Oversight of the USITC

On November 30, 2009, the GAO sent an engagement memorandum to the Chairman
announcing a review of the activities of the USITC’s Inspector General. The GAO
indicated in the memorandum that it seeks to obtain an understanding of the USITC
operations and to identify areas for routine Inspector General oversight. The review will
include audit and investigative coverage of the USITC, the results of the Inspector
General’s work, and the available resources used by the Inspector General. Initial
fieldwork covering a five-year period is currently underway, and a draft report is
expected later this year.



Peer Review of the Office of Inspector General Audit Function

The GAO’s Government Auditing Standards require a peer review every three years.
There had been no peer review of the Inspector General’s audit function for more than
five years. In December, the Inspector General requested (through the Audit Committee
of the Council of Inspectors General on Integrity and Efficiency) that a peer review of the
Inspector General’s audit program be conducted. The Inspector General from the
National Archives and Records Administration (NARA) agreed to perform a peer review
of the audit program in the USITC’s Office of Inspector General. The NARA Inspector
General has completed the peer review fieldwork and expects to issue a draft report in
May of 2010.




                                               11
                      Report Period: October 1, 2009 through March 31, 2010
              U.S. International Trade Commission
                       Inspector General Semiannual Report


                      Congressional Liaison Activities
Following the issuance of a disclaimer on the Commission’s FY 2009 financial
statements, the Inspector General, separately and along with the Chairman and Vice
Chairman, has briefed the bipartisan staff of the appropriate Congressional committees
(authorizers and appropriators) concerning (1) the audit findings, (2) the quality of the
Commission’s action plan to address the deficiencies, and (3) the status of the actions
being taken. When requested by the Congressional committees, the Inspector General
also provided additional briefings, without Commission management present, to answer
questions concerning the audit findings and the status of the actions being taken by the
Commission.




                                              12
                     Report Period: October 1, 2009 through March 31, 2010
         U.S. International Trade Commission
                    Inspector General Semiannual Report


               Table 5: Reports with Questions and Unsupported Costs

            Reports with Questioned and Unsupported Costs
                            Section 5(a)8
                                      Number of          Questioned       Unsupported
          Description
                                       Reports             Costs             Costs
Reports for which no management
decision has been made by the
                                             0                 $0               $0
commencement of the reporting
period
Reports issued during the
                                             6                 $0               $0
reporting period
                          Subtotals          6                 $0               $0
Reports for which a management
decision was made during the                 6                 $0               $0
reporting period
     x Dollar value of
                                             0                 $0               $0
          disallowed costs
     x Dollar value of allowed
                                             0                 $0               $0
          costs
Reports for which no management
decision has been made by the end            0                 $0               $0
of the reporting period



     Table 6: Reports with Recommendations That Funds Be Put to Better Use

  Reports with Recommendations that Funds Be Put to Better Use
                        Section 5(a)9
                                                       Number of          Funds Put to
                    Description
                                                        Reports            Better Use
Reports for which no management decision has been
                                                              0                $0
made by the commencement of the reporting period
Reports issued during the reporting period                    6                $0
                                           Subtotals          6                $0
Reports for which a management decision was made
                                                              6                $0
during the reporting period
    x Dollar value of recommendations agreed to
                                                              0                $0
         by management
    x Dollar value of recommendations not agreed
                                                              0                $0
         to by management
Reports for which no management decision has been
                                                              0                $0
made by the end of the reporting period




                                           13
                  Report Period: October 1, 2009 through March 31, 2010
               U.S. International Trade Commission
                          Inspector General Semiannual Report


                    Table 7: Status of Reports Issued Without Final Action

                   Status of Reports Issued Without Final Action
                               This Reporting Period
                                                              Decisions
                                                                             Final      Action
                                      # of       Mgt.            IG
         Report Title                                                        Action      Not
                                      Recs.    Decisions      Disagrees
                                                                            Complete   Complete
                                                                With
    Independent Auditor’s
    Report on Internal Controls
1                                      13             13           0            0         13
    for 2009 Financial
    Statements, 11/06/2009
    Management Letter for 2009
2   Financial Statements,               6             6            0            0         6
    12/08/2009
    Federal Information Security
    Management Act Fiscal
3                                      11             11           0            4         7
    Year 2009 Performance
    Audit, 03/09/2010
       Subtotal Current Period         30             30           0            4         26
                                  Prior Reporting Periods
                                                              Decisions
                                                                             Final      Action
                                      # of       Mgt.            IG
         Report Title                                                        Action      Not
                                      Recs.    Decisions      Disagrees
                                                                            Complete   Complete
                                                                With
    Federal Information Security
    Management Act Fiscal
1                                      14             14           0            11        3
    Year 2004 Performance
    Audit, 09/27/2005
          Subtotal Prior Period        14             14           0            11        3




                                                 14
                        Report Period: October 1, 2009 through March 31, 2010
             U.S. International Trade Commission
                                         Appendix A

Appendix A: Chairman’s Statistical Tables
                            Table A: Reports with Disallowed Costs

    Total Number of Reports and the Dollar Value of Disallowed Costs
                                                             Number of   Dollar Value of
                        Description
                                                              Reports    Disallowed Costs
    Reports issued during the period                              6             $0
    Reports for which final action had not been taken by
                                                                  0             $0
    the commencement of the reporting period
    Reports on which management decisions were made
                                                                  6             $0
    during the reporting period
                                                 Subtotals        6             $0
    Reports for which final action was taken during the
                                                                  6             $0
    reporting period
         x Dollar value of disallowed costs recovered
                                                                  0             $0
             by management
         x Dollar value of disallowed costs written off
                                                                  0             $0
             by management
    Reports for which no final action has been taken by
                                                                  0             $0
    the end of the reporting period



          Table B: Reports with Recommendations that Funds Be Put to Better Use


      Reports with Recommendations that Funds Be Put to Better Use
                                                             Number of     Funds Put to
                        Description
                                                              Reports       Better Use
    Reports for which final action had not been taken by
                                                                  0             $0
    the commencement of the reporting period
    Reports on which management decisions were made
                                                                  6             $0
    during the reporting period
                                                 Subtotals        6             $0
    Reports for which final action was taken during the
                                                                  6             $0
    reporting period including:
         x Dollar value of recommendations that were
                                                                  0             $0
             actually completed
         x Dollar value of recommendations that
                                                                  0
             management has subsequently concluded                              $0
             should not or could not be completed
    Reports for which no final action has been taken by
                                                                  0             $0
    the end of the reporting period




                                                A-1

                        Appendix A: Chairman’s Statistical Tables
       U.S. International Trade Commission
                               Appendix A


        Table C: Prior Year Management Decisions Without Final Action

 Prior Year Audit Reports On Which Management Decisions Have
         Been Made but Final Action Has Not Been Taken
                                            Funds Put        Reason Final
                              Disallowed
Audit Report    Date Issued                  to Better      Action Has Not
                                Costs
                                                Use          Been Taken
                                                           Provided in Section 2
OIG-AR-04-05   09/27/2005         $0            $0          of the Chairman’s
                                                                   letter




                                    A-2

                Appendix A: Chairman’s Statistical Tables
“Thacher’s Calculating Instrument” developed by Edwin Thacher in the late 1870s. It is a cylindrical, rotating slide
rule able to quickly perform complex mathematical calculations involving roots and powers. The instrument was used
by architects, engineers, and actuaries as a measuring device.
